Pension Benefit Guaranty Corporation

      Office of Inspector General
         Evaluation Report




Evaluation of the Premium Compliance
           Review Program




           January 24, 2001
                                    2001-2/23142
                                               Evaluation of the Premium Compliance
                                                        Review Program

                                                Evaluation Report 2001-2/23142


                                                           TABLE OF CONTENTS


EXECUTIVE SUMMARY .......................................................................................................................                 i

INTRODUCTION......................................................................................................................................        1

OBJECTIVES ............................................................................................................................................   2

SCOPE AND METHODOLOGY ............................................................................................................                        2

FINDINGS AND RECOMMENDATIONS.............................................................................................                                 3


                                                                            TAB

TAB I                      MANAGEMENT RESPONSE


                                                                ABBREVIATIONS


CCD                        Collection and Compliance Division

CFO                        Chief Financial Officer

CFR                        Code of Federal Regulations

ERISA                      Employee Retirement Income Security Act of 1974, as amended

FOD                        Financial Operations Department

FY                         Fiscal Year

GAB                        General Accounting Branch

PAIB                       Premium Accounting and Investment Branch

PAS                        Premium Accounting System

PBGC                       Pension Benefit Guaranty Corporation

PCR                        Premium Compliance Review

SOA                        Statement of Account

                          Evaluation of the Premium Compliance
                                     Review Program

                             Evaluation Report 2001-2/23142

                                   EXECUTIVE SUMMARY

INTRODUCTION

       The Employee Retirement Income Security Act (ERISA) of 1974, as amended,
requires plan sponsors of participating defined benefit pension plans to obtain insurance
with the Pension Benefit Guaranty Corporation (PBGC) to cover them in the event of
pension plan failure. Pension plans calculate their premiums in accordance with PBGC
instructions, file their forms, and pay their premiums by a specified due date. The
Premium Compliance Review (PCR) program was established to audit pension plans'
compliance with premium payment requirements. PBGC hires contractors to perform PCR
work.

FINDINGS AND RECOMMENDATIONS

1. 	Contractor's Work Did Not Fully Meet Audit
    Standards, Was Of Poor Quality and
    Was Incomplete.

        We reviewed contractor work for compliance with the PCR procedures, contract
terms and professional audit standards. We found that some contractors who perform PCR
audits failed to follow professional standards. Their work was of poor quality and was not
in compliance with contract terms. In addition, contractors may have been paid for work
that they did not perform or did not perform well. As a result of identified deficiencies, we
were unable to determine whether some of the audit work was properly planned and
supervised. Moreover, without proper indexing and cross-referencing, we could not
determine whether the information obtained and work performed was accurate, or whether
a decision by management was appropriate.

                                      Recommendation

       We recommend that PBGC take the following corrective action:

       Ensure that all the PCR reviews performed by contractors comply with the Premium
       Compliance Review Procedures Manual. (CCRD-5)

2. PAIB Did Not Follow PCR Manual Requirements.

       The Premium Audit and Inspection Branch (PAIB) has certain responsibilities under
the PCR Manual, both with respect to contractor oversight and when PBGC auditors are
performing the PCR work. The PBGC auditors did not always comply with the PCR Manual
requirements. We identified several instances where PBGC auditors failed to approve or
complete certain procedures related to PCR. One of these conditions was previously
reported in an OIG audit report and the recommendation is open.

                                     Recommendations

       We are reiterating an open audit recommendation:

       Require all premium compliance reviews to be performed,
       documented, and approved in accordance with PBGC Premium
       Compliance Review Procedures Manual. (CCRD-3)




                                             i

       We also recommend that PBGC take the following corrective action:

       Ensure that all the PCR reviews performed by PBGC auditors comply with the
       Premium Compliance Review Procedures Manual. (CCRD-6)

3. Statements Of Account Are Manually Prepared.

        Once a PCR is completed, PBGC issues a Statement of Account (SOA) to the plan
which lists the premium calculation, interest and penalties assessed for late payments;
deducts any amounts already paid; and tabulates the amount due PBGC. The SOA is
presented to the plan sponsor, along with an explanation of the review findings. During
our testing, we found instances in which manually prepared SOAs were used. Not only is
PBGC not in compliance with its own policy, but the practice of preparing manual SOAs
adds significant risk in the safeguarding of assets. This condition was previously reported
in an OIG audit, and remains uncorrected.

                                      Recommendation

       We are reiterating an open audit recommendation:

       Eliminate the use of manually prepared SOAs. (FOD-228).

4. Contractors Did Not Always Meet PBGC Qualifications.

        We found that the contractors did not address the minimum experience and
qualifications requirements of the contract. We found instances of partners not including
any reference to a working knowledge of ERISA and managers failing to include any
reference to defined benefit plans. Contractors also failed to include years of experience on
their resumes.

                                      Recommendation

       We recommend that PBGC take the following corrective action:

       Ensure that all contractors are qualified and meet the minimum
       level of experience specified in the contract before they are selected.
       (CCRD-7)

5. Contract Oversight Needs To Be Strengthened.

       The Contracting Officer's Technical Representative (COTR) is responsible for
monitoring contracts. However, we identified problems that were caused by the COTR’s
lack of consistent monitoring.
                                      Recommendations

       We recommend that PBGC take the following corrective actions:

       PBGC should evaluate the labor category mix used by contractors during
       PCR to determine whether contractor costs charged to PBGC are
       excessive. Recoup any overpayment determined. (CCRD-8)
       COTRs should ensure that contractors submit proper invoices in
       accordance with contract terms. (CCRD-9)

       Strengthen PBGC oversight to ensure that any changes to key personnel
        are detected and evaluated and that contractors justify key personnel
       requests. (CCRD-10)




                                              ii

MANAGEMENT RESPONSE AND OIG EVALUATION

       A draft report was provided to the Agency for comment. PBGC officials generally
concurred with the findings and recommendations (see TAB I).




                                           iii

                         Evaluation of the Premium Compliance
                                    Review Program

                            Evaluation Report 2001-2/23142


INTRODUCTION

        The Employee Retirement Income Security Act (ERISA) of 1974, as amended,
requires plan sponsors of participating defined benefit pension plans to obtain
insurance with the Pension Benefit Guaranty Corporation (PBGC) to cover them in the
event of pension plan failure. Each year PBGC sends instruction booklets with
payment forms to plans that have paid premiums in the past. Plans calculate their
premiums in accordance with PBGC instructions, file their forms, and pay their
premiums by a specified due date.

      ERISA also requires that interest accrue on unpaid premiums and authorizes
PBGC to assess penalties when premiums are paid late or are underpaid. As such,
PBGC receives revenues from the collection of premiums, interest, and penalties.

        The Collections and Compliance Division (CCD) administers premium operations
within the Financial Operations Department (FOD). Within CCD, the Premium Audit and
Investigation Branch (PAIB) is responsible for auditing pension plans’ compliance with
premium regulations and ensuring that plans have paid the correct amount of premium,
interest and penalties owed PBGC.1 To assist with reviewing whether plans are complying
with their premium payment obligations, PBGC contracts with certain 8(A) certified public
accounting (CPA) firms.

       We reviewed PBGC's premium compliance review (PCR) program in conjunction with
our evaluation of PBGC's oversight of the contractors’ performance. We found the PCR
operated generally as follows: A defined benefit pension plan is selected for review, often
based on either plan size or significant differences in participant counts between years.
The Chief of PAIB has the responsibility of selecting the plans for review. PBGC personnel
conduct some reviews; however, contractors perform most reviews. The review process
begins when PBGC sends a notification letter to the plan sponsor that states the intent to
conduct a review and makes an initial request for information. The information typically
requested is the plan's independent auditor's report, PBGC Form 1 and Schedule A, Form
5500 and associated schedules, Actuarial Valuation Report and IRS Form 6559 (Electronic
Data Transfer Totals which shows the number of employees paid during the year).

        Once the information is received, a desk review is conducted to determine whether a
plan's participant count is accurate and whether the variable rate calculation is
appropriate. If the desk review yields unexplained discrepancies, a field review may be
initiated. When a desk or field review is complete, the Chief of PAIB evaluates the review
findings, and makes final determinations on participant counts, the valuation of plan
assets, and the amount of premium, interest and penalty due PBGC.




1
  At the time of the OIG review, FOD had responsibility for the PCR program. That program is
now being administered by the Contracts and Control Review Department.




                                               1
OBJECTIVES

       Our evaluation covered the Fiscal Years (FY) 1997 through FY 1999. To
accomplish our evaluation, the following objectives were identified:

         1.	 Review the controls over the Corporation’s PCR program, including
             compliance with policies and procedures.

         2. Review the quality of the contractors’ work.

         3.	 Determine whether the work was performed in accordance with professional
             standards.

         4. Evaluate PBGC’s effectiveness in reviewing the contractor's performance.

         5. Determine whether the contractor's work complied with contract terms.


SCOPE AND METHODOLOGY

        Our scope was the universe of premium audits completed by PAIB auditors and
the five (5) CPA firms with whom PBGC contracted to performs PCRs: Carter &
Associates; Frye, Williams & Company; Owusu & Company; Emma S. Walker; and
Coleman & Williams. The universe consisted of forty-eight (48) premium compliance
reviews that were completed during FY 1997 through FY 1999. From the universe of
forty-eight (48) closed premium compliance files, we were only able to obtain thirty-
seven (37) PCR files. We selected a judgmental sample representing the work of all
contractors and PAIB. We analyzed these completed reviews.

         For compliance criteria, we identified and reviewed the following:

         1.   Premium Compliance Review Contracts, J-7-527 through J-7-531;2
         2.   ERISA § 4003, Investigatory Authority;
         3.   ERISA § 4006, Premium Rates;
         4.   ERISA § 4007, Payment of Premiums;
         5.   29 CFR Part 4006, Premium Rates;
         6.   29 CFR Part 4007, Payment of Premiums;
         7.   FOD Premium Compliance Review Procedures Manual;
         8.   PBGC Premium Package and Instructions (PBGC Form1); and
         9.   Professional auditing standards.

       As part of this evaluation, we interviewed PBGC personnel regarding duties,
assignments and procedures. In addition, our evaluation was performed in
conformance with the quality standards for inspections published by the President’s
Council on Integrity and Efficiency, dated March 1993. We discussed our findings with
PBGC officials, and have incorporated their comments where appropriate.




2
    Subsequent years’ contracts are renumbered with the fiscal year designation, e.g., J-8-527.




                                                 2
FINDINGS AND RECOMMENDATIONS

1. 	Contractor's Work Did Not Fully Meet Audit
    Standards, Was Of Poor Quality and Was
    Incomplete.

        When we conducted our review, we requested all of the forty-eight (48) PCR files
that the contractors had reported as “closed” to PBGC. Eleven (11) files were not
provided. Of the eleven (11) missing files, one contractor could not locate one (1) out of
eight (8) files assigned to his firm. Another contractor failed to submit ten (10) of the
thirteen (13) closed files assigned to the firm.

        The PCR contracts with PBGC state:

        All premium compliance reviews are to be conducted in
        accordance with the laws and regulations of the United States
        Government, the Privacy Act of 1974, as amended (5 U.S.C. §
        552a, to the extent provided in 5 U.S.C. § 552a(m), GAAS, GAAP)
        ERISA, 29 CFR Part 2600, and PBGC policies and procedures….

(See the Statement of Work, Part IV, Requirements, Section A.) The contractors are all
CPA firms and are governed by professional standards issued by the American Institute
of Certified Public Accountants (AICPA). These standards are subsumed within the
Generally Accepted Auditing Standards (GAAS), required in the contract.

     Working Papers Did Not Fully Meet Audit
     Standards and Showed Poor Quality

         We reviewed the files for compliance with the PCR procedures, contract
provisions and professional audit standards. According to the Premium Compliance
Review Procedures Manual (PCR Manual), each file prepared for either a desk review or
field review should contain:

•    An audit program that details the review procedures conducted for the plan;

•	   Each step initialed by the person(s) who performed the work and cross-referenced to
     the specific section in the file where the supporting documentation is located;

•	   All significant information listed in the Compliance Report, Review SOA(s), Amended
     Plan Filing(s), and Findings/Conclusions/Recommendations indexed and cross-
     referenced to supporting documentation listed per the Plan Data, Review Schedules
     and work papers, or Correspondence; and

•	   The source and date of all information used on the review schedules noted on the
     review schedule and work papers by explanatory tick marks.

       In addition the PCR Manual specified particular procedures to be performed by
the contractors. The AICPA Professional Standards, which define working paper
requirements, govern the contractors for such agreed-upon procedures engagements.
Section 622.29 of these Standards states:

        The accountant should prepare and maintain working papers in
         connection with an engagement to apply agreed-upon procedures;
        such working papers should be appropriate to the circumstances and
        the accountant's needs on the engagement to which they apply.
        Although the quantity, type, and content of working papers vary with
        the circumstances, ordinarily they should indicate that -



                                             3
       a. The work was adequately planned and supervised.

       b. 	Evidential matter was obtained to provide a reasonable basis for
         the finding or findings expressed in the accountant's report.

       We found that five (5) out of eight (8) files were indexed incorrectly by one of the
contractors and one (1) out of eight (8) by another. The contractors used their own
indexing system instead of that required in PBGC’s PCR Manual. We found no PBGC
approval authorizing a change in system indexing.

         We found several files from one contractor that consisted of loose pages
maintained in folders in a haphazard manner. The working papers were neither
numbered nor cross-referenced to supporting documentation. The working papers
failed to identify the source of the information and the purpose for which it was
obtained. The working papers also failed to provide sufficient information to enable an
auditor, independent of the engagement, to determine whether the evidence supported
the findings. The working papers lacked the initials of the auditor responsible for the
work and the manager responsible for supervising the engagement. There was no
evidence of a review by the partner in charge. We even found incomplete PCR
programs.

       During our review, we also found various mathematical errors relating to
calculations of penalty and interest.

   Compliance Reports Not Prepared By Contract Auditors

       At the conclusion of their reviews, the contractors were required to prepare
compliance reports summarizing their findings. The Statement of Work at Part V,
Deliverables and Reporting Requirements, Section A, also requires that the contractors
prepare a compliance review report upon completion of their work.

       A Compliance Review Report should also be completed, detailing
       information obtained, results and findings of each compliance
       review performed, to include the procedures followed, exceptions
       noted, recommended filing adjustments, and the estimated amount
       of premium, penalty(ies) and interest due (if any).

        We found several PCR files in which a compliance review report was not
prepared. This report is necessary to document the information obtained, and the
results and findings of each compliance review so that PBGC can conduct its review and
make premium compliance determinations.

       In summary, by failing to follow professional standards and submitting work of
poor quality, the contractors were not in compliance with their contracts. In addition,
contractors may have been paid for work that they did not perform or did not perform
well. As a result of the deficiencies, we were unable to determine whether some of the
PCR work was properly supervised. Also, we were unable to determine whether the
work was properly planned. Moreover, without proper indexing and cross-referencing,
we could not determine whether the information obtained and work performed was
accurate, or whether a decision by management was appropriate.




                                              4
                                    Recommendation

       We recommend that PBGC take the following corrective action:

       Ensure that all the PCR reviews performed by Contractors comply
       with the Premium Compliance Review Procedures Manual.
       (CCRD-5)


2.   PAIB Did Not Follow PCR Manual Requirements.

       PAIB has certain responsibilities under the PCR Manual, both with respect to
contractor oversight and when PBGC auditors are performing the PCR work. The PAIB
auditors did not always comply with the PCR Manual requirements.

       A. PAIB Oversight Reviews Are Incomplete.

       We found incomplete portions of the Manager's Review Checklist (the Checklist).
In some instances, we found that the PAIB Chief 's and the PAIB Actuary's signature
were missing. These signatures are proof of PBGC’s review and approval. We also
found the PAIB Chief’s part of the audit program was not completed in seven (7) of the
plans.

       The PCR Manual, Part 3 – Review Document, states that:

       The PAIB staff will review and approve the completed file prior
       to billing the plan for any additional premium, interest, and penalty,
       or sending the audit close-out letter. Review and approval will be
       documented by the PAIB Chief's and actuary's signature/initials
       on the PBGC portion of the manager review checklist.

       By failing to complete the Checklist, PBGC cannot demonstrate that it has
conducted proper review of the contractors’ work and, thus, cannot support its
determinations made in reliance on that work.

       We had previously identified this problem in a prior audit, Fiscal Year 1998
Financial Statement Audit -Management Report, Audit Report 99-8 (September 23,
1999). In that audit, we reported several instances were PBGC failed to approve or
complete certain procedures related to PCR, mainly performed by PBGC's contractors.
Our evaluation determined that this condition continues to exist, and our
recommendation from that report remains open.


                                    Recommendation

       We are reiterating an open audit recommendation:

       Require all premium compliance reviews to be performed)
       documented, and approved in accordance with PBGC Premium
       Compliance Review Procedures Manual. (CCRD-3)




                                             5
        B. 	PAIB Failed to Follow Their Own Guidelines
            And Procedures When Performing PCRs.

       When PAIB auditors perform PCRs, they are required to follow the same PCR
Manual procedures as the contractors. We found that the PAIB auditors’ work did not
always comply with the PCR manual requirements. We found instances in which their
work was not documented, cases were not indexed, and a proper audit trail was not
maintained.

                                       Recommendation

        We recommend that PBGC take the following corrective action:

        Ensure that all the PCR reviews performed by PAIB auditors comply
        with the Premium Compliance Review Procedures Manual.
        (CCRD-6)


3.   Statements Of Account Are Manually Prepared.

        Once a PCR is completed, PBGC issues a Statement of Account (SOA) to the plan
which lists the premium calculation, interest and penalties assessed for late payments;
deducts any amounts already paid, and tabulates the amount due PBGC. The SOA is
presented to the plan sponsor, along with an explanation of the review findings. In our
testing, we found instances in which manually prepared SOAs were used.3 Not only is
PBGC not in compliance with its own policy, but the current practice of preparing
manual SOAs adds significant risk in the safeguarding of assets.

        We identified this accounting control problem in a prior inspection report. In
Inspection of PBGC’s Premium Compliance Program, Audit Report 97-06 (August 7, l997),
we found that a manual SOA is created however, it is not immediately entered into the
accounting records. Our evaluation determined that this condition continues to exist,
and our recommendation from that report remains outstanding.


                                       Recommendation

        We are reiterating an open recommendation:

        Eliminate the use of manually prepared SOA. (FOD 228).




3
  During the period reviewed, we also found that the manual SOAs created as a result of the
PCRs were not immediately entered into the accounting records. CCD waited until two events
occur: (1) the late payment penalty amount, if any, is finalized; and (2) the premium, interest and
penalty have been collected. This was a finding and recommendation in Inspection of PBGC’s
Premium Compliance Program, Audit Report 97-06, (August 7, l997). PBGC completed appropriate
corrective action on this outstanding recommendation on September 30, 1999.




                                                 6
4. Contractors Did Not Always Meet PBGC Qualifications.

        In our review of the resumes submitted by PCR contractors, we found that only
one (1) contractor of the five (5) met the required minimum acceptable level of
experience and qualifications to perform the PCRs. Each contractor was required by
the Request for Proposal (RFP) to submit resumes. Section H, "Special Contract
Requirements " of the RFP states:

           The contractor shall provide resumes for the proposed staff who MUST

           meet the minimum acceptable level of experience and qualifications as

           follows: The managing partner shall have a working knowledge of ERISA

           with a minimum of six years of senior level auditing experience.

           . . . The Audit Manager shall have at least four years of professional

           auditing experience, including one year of experience relating to defined

           benefit plans. . . . Staff Auditors shall have a degree in Accounting with at

           least one year of auditing experience (emphasis in original). 


        We found that the contractors did not address the minimum experience and
qualifications requirements of the contract. We found instances of partners not
including any reference to a working knowledge of ERISA and managers failing to
include any reference to defined benefit plans. Contractors also failed to include years
of experience on their resumes. Both the RFP and the contract emphasized that the
stated experience and qualifications were mandatory minimums.4 The lack of
experience and qualifications could have been a factor in the poor quality of some of the
reviews performed.

                                        Recommendation

           We recommend that PBGC take the following corrective action:

           Ensure that all contractors are qualified and meet the minimum level of experience
           specified in the contract before they are selected.
           (CCRD-7)


    5.   Contract Oversight Needs To Be Strengthened.

       The Contracting Officer's Technical Representative (COTR) is responsible for
monitoring contracts. However, we identified problems that were caused by lack of
monitoring by the COTR. Under the terms of the contract, Section G.8, the COTR is:
           authorized to review and recommend approval of . . . Technical
           matters not involving a change of scope, price, terms or condition of
           the contract. . . . Inspection and acceptance of services and
           deliverable products and Invoices, . . .




4
  All five contractors had previously performed Premium Compliance Reviews. The four
contractors that failed to justify their qualifications had worked previously for 10 months under
purchase orders doing reviews. Under the purchase orders, written into the Statement of Work,
the partner(s), manager(s) and staff were required to have the same minimum acceptable level of
experience and qualifications as the contracts that were the subject of this evaluation. The
difference was the purchase orders did not require submission of resumes.



                                                 7
       PBGC Directive FM 15-1, Section 3H, further identifies COTR
responsibilities, including the requirement to:
                                   *       *       *
         (2) . . . Establish and maintain direct contact with the contractor and
         provide any necessary instructions or guidance . . . .
         (3) Monitor the contractor’s performance to ensure compliance with the
         technical performance aspects of the contract; record findings; and
         immediately advise the CO of any problems . . . .
                                   *       *       *
         (5) Perform monthly contract reconciliation and identify problems for
         resolution . . . .
        During the period of our review, we found the COTRs changed three times.
From the contract inception and through the first two changes in COTRs all five PCR
contracts were assigned to a single COTR. After eighteen months, the contracts were
split among two COTRS. During the time that one COTR monitored all five contracts,
the contracts should have been handled consistently. Instead, we found multiple
oversight problems.

          A. Labor Categories

       Two contractors used only three of the four labor categories to perform their
PCRs. The contracts had labor categories with rates, experience and qualification
requirements for partner, manager, senior and staff. From these four job categories the
contractors were to make up teams to do the reviews. Section B of the contract states:

          The Contractor shall provide the work described in Section C using the
          labor categories and hourly rates below for the term specified . . . .

         The COTRs approved invoices for two contractors that used only three job
categories. We found that one contractor did not use any staff auditors. All work that
would have been done by a staff auditor was done by a higher paid senior auditor. The
failure to have staff auditors perform PCR work is likely to increase PBGC’s cost for the
PCR. The second contractor used partners, seniors and staff, but no managers.
Managers had a specific qualification requirement of four years of professional auditing
and one year of defined benefit experience. Since the manager's job category was the
only position required to have one year work experience with defined benefit plans, the
loss of this expertise could have effected contractor performance. We found no evidence
of the COTRs reporting the problem to the Contracting Officer (CO). 5


                                         Recommendations

          We recommend that PBGC take the following corrective actions:

          PBGC should evaluate the labor category mix used by contractors
          during PCR audits to determine whether contractor costs charged
          to PBGC are excessive. Recoup any overpayment determined.
          (CCRD-8)




5   The same two contractors did not use these labor categories in their purchase order contracts.



                                                   8
       B. Invoices Not Proper

       The COTRs accepted invoices from two contractors that did not constitute a
proper invoice as defined in the contract. To constitute a proper invoice, under Section
G.2, "Submission of Invoices,” the contract states:

       The invoice must include the following information and/or attached
       documentation: . . . Expenditures and hours of effort expended by
       individual during the reporting period. (Emphasis supplied.)

       Two of the contractors stopped reporting hours of effort by individual name.
Instead, they reported the hours generically by job category, such as 62 senior hours, or
5 partner hours. The COTRs authorized payment of these invoices that did not report
hours of effort by individual. Based our review, we could not:

       •	   Determine who was working on a particular review on two out of the
            five contractors;

       •	   Determine if the contractor team had sufficient knowledge or
            experience to conduct the reviews; nor

       •	   Determine if the key personnel worked the minimum of six months
            required by the contract for two out of the five contracts.

       Poor oversight by the COTR could affect the quality of work and the effectiveness
of PCR. In addition, without knowing the person or persons who performed the work,
we could neither determine the experience of the individuals performing the work nor
match them to contract invoices.


                                      Recommendations

       We recommend that PBGC take the following corrective actions:

       COTRs should ensure that contractors submit proper invoices in accordance with
       contract terms . (CCRD-9)


       C. Key Personnel Were Not Replaced

        We found that key personnel did not work for the term specified under the
contract nor did the contractors present substitutes as required. The contract
specified that the contractor was to retain, for a minimum of six months, key personnel
identified by name as essential to the contract. Section G.9. of the contract, "Key
Personnel," states:

       •	   . . . key personnel shall be currently employed by the contractor and
            NOT reassigned for the first six months of this contract.
       •	   Prior to removing . . . the Contractor shall provide 30 days advance
            notification to the Contracting Officer . . . submit justification (including
            proposed resumes/substitutions) in sufficient detail to permit
            evaluation of the impact on the Program.
       •	   No diversion shall be made by the Contractor without the written
            consent of the Contracting Officer.




                                                 9
        Though the COTR was in contact with the contractors on a weekly, if not
daily, basis and received and authorized payment of invoices that identified individuals
by name, the COTR failed to inform the CO that, after the first month, two contractors
no longer had key personnel working on the reviews. COTRs do not have the authority
to accept a change in terms or conditions of the contract. A change in key personnel
during the first six months of the contract constitutes a change in the condition of the
contract.

        Since the loss of the key personnel was not reported to the CO, the impact of
their leaving was never evaluated. One of these two contractors did not have their
option year renewed because of problems with the quality of their work. Loss of key
personnel could have been a contributing factor in their ability to do the work
effectively.

                                   Recommendations

       We recommend that PBGC take the following corrective actions:

       Strengthen COTR oversight to ensure that any changes to key
       personnel are detected and evaluated and that contractors justify
       key personnel requests. (CCRD-10)




                                            10
Tab I

